No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
JUSTIN EUGENE TAYLOR
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI (PAGE PROOF), via email and first-class mail,
postage prepaid, this 14th day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,271
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
April 14, 2021.

Edwin S. Kneedler
Deputy Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 14, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

UNITED STATES OF AMERICA
JUSTIN EUGENE TAYLOR

GREGORY C. KAMENS
FEDERAL PUBLIC DEFENDER
FRANCES H. PRATT
ASSISTANT FEDERAL PUBLIC DEFENDER
1650 KING STREET
SUITE 500
ALEXANDRIA, VA 22314
703-600-0800
FRAN_PRATT@PD.ORG

